                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
                                                              15 N EW S UDBURY S TREET, R OOM 2425
                                                                                B OSTON , MA 02203
June 25, 2012

Report Number: A-01-12-00004

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Massachusetts Medicaid Payments to Diocesan Health Facilities Did
Not Always Comply With Federal and State Requirements. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-12-00004 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Dr. JudyAnn Bigby

Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   MASSACHUSETTS MEDICAID
 PAYMENTS TO DIOCESAN HEALTH
   FACILITIES DID NOT ALWAYS
COMPLY WITH FEDERAL AND STATE
         REQUIREMENTS




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-01-12-00004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency) is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of a
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment by the amount of the beneficiary’s contribution, the nursing home could receive
overpayments. Pursuant to Medicaid requirements, the nursing home must return any
overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Diocesan Health Facilities (Diocesan) is a Massachusetts provider with five Medicare and
Medicaid certified nursing homes located in Fall River, North Attleboro, Taunton, Fairhaven,
and New Bedford, Massachusetts. The nursing homes are Catholic Memorial Home, Madonna
Manor, Marian Manor, Our Lady’s Haven, and Sacred Heart Home.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Diocesan
in accordance with Federal and State requirements from January 2008 through December 2011.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Diocesan. However, the State agency did not always adjust its Medicaid per
diem payments to Diocesan by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $48,448 ($25,325 Federal Share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $48,448 from Diocesan and refund the Federal share of
       $25,325 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

DIOCESAN HEALTH FACILITIES COMMENTS

In written comments on our draft report, Diocesan agreed with our finding. Diocesan’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          DIOCESAN HEALTH FACILITIES COMMENTS ..........................................3

          STATE AGENCY COMMENTS ........................................................................4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO DIOCESAN HEALTH FACILITIES BY
             CALENDAR YEAR

          B: DIOCESAN HEALTH FACILITIES COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Diocesan Health Facilities (Diocesan) is a Massachusetts provider with five Medicare and
Medicaid certified nursing homes located in Fall River, North Attleboro, Taunton, Fairhaven,
and New Bedford, Massachusetts. The nursing homes are Catholic Memorial Home, Madonna
Manor, Marian Manor, Our Lady’s Haven, and Sacred Heart Home.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Diocesan
in accordance with Federal and State requirements from January 2008 through December 2011.

Scope

For the period January 2008 through December 2011, we reviewed Medicaid accounts that were
at risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Diocesan’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.



                                                1
We performed fieldwork from February through March 2012 at Diocesan in Fall River
Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments;

   •   worked with Diocesan officials to identify credit balances in the accounting records that
       were potentially overpayments;

   •   reviewed patient accounts to determine whether overpayments had occurred;

   •   determined the cause of the overpayments; and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Diocesan. However, the State agency did not always adjust its Medicaid per
diem payments to Diocesan by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $48,448 ($25,325 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 83 overpayments to the 5 Diocesan nursing homes from January 2008 through
December 2011 (see Appendix A). Specifically, the State agency did not adjust its Medicaid
payments to Diocesan by the amount of beneficiaries’ cost-of-care contributions from resources,
such as Social Security and pensions.

                          An Example of a Medicaid Overpayment

   Mr. E was a patient at Diocesan nursing home during August 2009. Based on his other
   resources, the State agency calculated Mr. E’s cost-of-care contribution to be $1,000 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $5,900. Because of Mr. E’s $1,000 cost-of-care contribution, the State agency
   was responsible for only $4,900 of the $5,900 nursing home costs. However, the nursing
   home received a total of $6,900 ($5,900 from the State agency and $1,000 from Mr. E).
   This error occurred because the State agency’s computer system did not adjust the payment
   amount by Mr. E’s cost-of-care contribution. The nursing home, therefore, received an
   overpayment of $1,000 ($6,900 minus $5,900) for Mr. E’s care for the month of August.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Diocesan for the period from January 2008 through December 2011 was overstated by a total
of $48,448 ($25,325 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 83 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $48,448 from Diocesan and refund the Federal share of
       $25,325 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

DIOCESAN HEALTH FACILITIES COMMENTS

In written comments on our draft report, Diocesan agreed with our finding. Diocesan’s
comments are included in their entirety as Appendix B.


                                               3
STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO DIOCESAN HEALTH
             FACILITIES BY CALENDAR YEARS


      Calendar    Number of          Total
       Year      Overpayments    Overpayments

       2008           13            7,039
       2009           9             1,133
       2010           12            4,453
       2011           49            35,823

      TOTAL           83            $48,448
                             APPENDIX B: DIOCESAN HEALTH FACILITIES COMMENTS
                                                                                                                                  ,
Diocesan Health Facilities                                                                   Rev. Msgr. Edmund J. Fitzgerald 

Roman Catholic Diocese of Fall River                                                                       Executive Director 

368 North Main Street
Fall River, MA 02720             April   26, 2012
P 508-679-8154
(508-679-1422
www.dhfo.org
                               Mr. Michael.T. Armstrong 

                               Regional Inspector General for Audit Service 

                               Department of Health and Human Services 

                               Office of Audit Services, Region I 

                               JFK Federal Building 

                               15 New Sudbury Street, Room 2425 

                               Boston, Massachusetts 02203 


                               Re:        Report Number: A-01-12-00004

                               Dear Mr. Armstrong:

                               These comments are in regard to Report A-01-12-00004. While we do agree
                               with the number of claims and the overpayment amount indicated in the report,
                               we have had many claims that have already been recouped by the State of
                               Massachusetts. The following are the claims and amounts, by year, that have
                               been returned to the state:

                                          2008 - 5 claims with a recoupment total of $4,069.38

                                          2009 & 2010 - 0 claims have been recouped

                                          2011 - 38 claims with a recoupment total of $32,513.34

                               The revised reported totals should be as fo lJows:

Bethany House
                                          2008 - 8 claims $2 ,9 69.~1. . 

Adult Day Health Care
Taunton                                   2009 & 2010 - no change as reported 

Catholic Memorial Home
Fall River
                                          2011 - 11 claims $3,309.66 


EldersFirst                    The remaining total owed to the State of Massachusetts is $10,845.28. We
Fall River                     would request that the report note the changes as stated above. 

Madonna Manor
North Attleboro                Per your request, an electronic copy of this response has also been sent to 

                               Mr. Curtis Roy at Curtis.Roy@oig.hhs.gov. 

Marian Manor
Taunton
                               If you have any questions, please feel free to contact me. Thank you.
Our Lady's Haven
Fairhaven                      Sincerely,
Sacred Heart Home
New Bedford              -clp/J(YI{. c;( (}t~
                               Susan L. Caldwell
                               Director of Operations
                               SLC:mlo
                                APPENDIX C: STATE AGENCY COMMENTS 



                               The Commonwealth of Massachusetts                                           MassHealth
                           Executive Office ofHealth and Human Services
                                          Office ofMedicaid
                                        One Ashburton Place
                                         Boston, MA 02108                                                   JUDYANN BIGBY, M.D.
 DEVAL L. PATRICK
     Governor                                                                                                     Secretary

TIMOTHY P. MURRAY                                                                                          JULIAN J. HARRIS, M.D.
Lieutenant Governor                                                                                           Medicaid Director


    June 7, 2012

    Michael J. Armstrong
    Regional Inspector General, Audit Services
    HHS/OIG/OAS
    Region I
    JFK Federal Building
    Boston. MA 02203

    RE: Audit Report No: A-01-12-00004

     Dear Mr. Armstrong,

    Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-00004,
    Review of Medicaid Payments at Diocesan Health Facilities for the period January 2008 through
     December 2011 .

    Our responses to the report's specific recommendations are as follows: 

    Recommendation: 

    1) Collect overpayments totaling $48,448 from Diocesan and refund $25,325, the Federal share of these 

    payments, to CMS on the next quarterly CMS-64. 


    Response: We are in agreement with this finding and will follow the procedures described in state Medicaid 

    regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130 CMR 450.237, the 

    provider has a due process right to contest the overpayment including the right to request an adjudicatory 

    hearing and judicial review. 


    Diocesan Health Facilities submitted a letter stating that claims in the amount of $37,602.72, subject to this audit 

    had already been recouped by MassHealth (See Appendix "B"). OIG has not been able to confirm that this 

    amount has been recouped by MassHealth, therefore MassHealth will take the necessary steps to confirm this 

    amount as part of the recoupment proces~ . 


    MassHealth will need the OIGs working papers identifying the specific claims in order to 1) confirm that these 

    overpayments have already been recouped, or 2) undertake collection of the overpayments, notify Alliance and if 

    required , defend the overpayment amounts should Alliance contest the overpayment notice. If Diocesan does 

    not contest the overpayment collection or does not prevail in contesting this overpayment. MassHealth will ensure 

    that the EOHHS' Federal Revenue Unit will return the Federal share on the appropriate CMS-64. 


    Recommendation:
    2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue to be identified ,
       collected and refunded .

    Response: MassHealth is in agreement with this recommendation and will ensure that periodic reviews and
    audits continue to be conducted to identify, collect and refund overpayments.

    Sincerely,
                 ~.
    Julian I1L,  M.D, M.B.A. , M.Sc.
    Medicaid Director
